CREDIT CARD
APPLICATION DISCLOSURE

iTHINK Financial Credit Union
P.O. Box 5090, Boca Raton, FL 33431-0890
800.873.5100 • www.ithinkfi.org • serviceplus@ithinkfi.org

IMPORTANT CREDIT CARD DISCLOSURES
The following disclosure represents important details concerning your credit card. The information about costs of the card are
accurate as of 04/01/2021 . You can contact us toll free at 800.873.5100 or the address above to inquire if any changes occured
since the effective date.
INTEREST RATES and INTEREST CHARGES:
Annual Percentage Rate (APR) for
Purchases and Cash Advances

8.90 % - 18.00 %
depending on your credit history. This APR will vary with the market based on the
Prime Rate.

APR for Balance Transfers

4.99 % - 10.99 %
Introductory APR until the balance transfer is paid in full for balances transferred
within 90 days of account opening. All other balance transfers, purchases and
cash advances will be at the Standard APR of 8.90 % - 18.00 %
depending on your credit history. The Standard APR will vary with the market based
on the Prime Rate.

Paying Interest

Your due date is at least 21 days after we mail your billing statement. We will not
charge you interest on purchases if you pay your entire new balance by the due date
each month. We will begin charging interest on cash advances and balance transfers
on the date the cash advance or balance transfer is posted to your account.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $0.50.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit
the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

FEES:
Fees to Open or Maintain your
Account
- Annual Fee:
- Application Fee:
Transaction Fees
- Balance Transfer:
- Cash Advance:
- Foreign Transaction:

Penalty Fees
- Late Payment:
- Over-the-Credit Limit:
- Returned Payment:

None
None

None
None
2% of each cross border transaction in U.S. dollars if the transaction involves a
currency conversion
2% of each cross border transaction in U.S. dollars if the transaction does not
involve a currency conversion

If your payment is late 10 days or more, up to $25.00 for the first offense and up to
$35.00 each if 2 or more offenses occur within 6 months.
None. We do not approve authorizations that will exceed your credit limit.
None

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)." See your
account agreement for more details.
Loss of Introductory Rate: We may end your Introductory Rate and apply the Standard APR disclosed above if you make a
late payment.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your account
agreement.

9009 LASER FPDF FI14762 Rev 2-2020

COPYRIGHT 2009 Securian Financial Group, Inc. All rights reserved.

